                      CLOSEOUT FOR 2491050023

                                  G on May 7, 19
                                 inthe Division
                                   had received
                                 ted to the Division
                                    Neither division had initially
                                                 investigator ,&
                                 ad been submitted to both. The
                                 University (the subject1 , having
                                                        called the
                                                         about the
                                                           program
officer, the subject admitted that the two proposals were in Eact
identical, and not merely similar. He explained that he had
           discussed joint funding with a rotating program officer
        who had since left NSF.
     O I G examined other proposals from the subject and determined
that this instance of dual submission without informing relevant
program officers seemed to be an isolated incident. O I G also
determined, however, that the subject's Form 12399, which are
supposed to list all current and pending support, regularly
contained incomplete and inaccurate information.       The subject
frequently omitted current awards or pending proposals and listed
titles and award amounts inaccurately.
     O I G wrote to the subject and to the Authorized Institutional
Representative at his university. The subject explained that he
was not seeking double funding, but did not indicate that he
understood the problems with his Form 1239s.        The university
reprimanded the subject for not fully informing them or NSF about
his research plans and commitments. It inserted a notice in its
regular research newsletter informing faculty about the importance
of providing this information to granting agencies.
     O I G wrote to the subject again, detailing the inaccuracies in
his Form 1239s and noting that two proposals that followed the
university's reprimand continued to contain inaccuracies. In his
reply, the subject admitted some inaccuracies, but attributed most
of the problem to his decision to delete pending proposals when he
informally heard from program officers that declinations would be
recommended and to delete current awards when the research had been
completed but before the final report (Form 98A) had been
submitted. O I G tracked the subject's proposal history and found
some support for his explanation, but found instances where
inaccuracies and omissions could not be explained in these ways.
We also examined his two most recent proposals and found their
statements of current and pending support to be substantially
accurate.

                            page 1 of 3


                           (I/        --   2 -7
     OIG wrote to the subject noting the deficiencies in his past
actions and explaining that we expect his future Form 1239s to be
fully and accurately completed, with exact proposal and award
titles and dollar amounts. We pointed out that the form is an
important tool for detecting fraud and abuse, including attempts to
secure double funding, and is in any event an administrative
requirement.      We wrote to the Authorized Institutional
~epresentative reiterating our concerns about this problem and
urging him to give the subject's Form 1239s special scrutiny in the
future.
     OIG also sent a memorandum to the division directors whose

we informed them that the subject had a history of inaccuracies in
his Form 1239s and that these may have misled NSF program officers

                                          rn
about the extent of his research commitments. We asked that they
review the subject's forms in the fu            and inform us of
inaccuracies. We also suggested that           consider asking the
Authorized Institutional Representative at the subject's university
to certify the accuracy and completeness of the subject's Form
1239s. We emphasized that we consider this an administrative
matter and not an issue of misconduct in science and stated that
the subject's past actions should not prejudice the review of his
future proposals.
     This case is closed and no further action will be taken.




               ,

Concurrence:




Donald E. Buzzelli
Deputy Assistant Inspector General,
Oversight




Assistant Inspector General for Oversight
                            page 2 of 3
                              'I\- a 3
L. Nancy Birnbaum
~ssistantCounsel to the Inspector General


cc: Signatories
   Inspector General




                         page 3 of 3
                            4\43
